Office of the Federal Public Defender

G. Alan DuBois Eastern District of North Carolina Phone (919) 856-4236
Federal Public Defender 150 Fayetteville Street, Suite 450 aay
Raleigh, North Carolina 27601 Website bipsiace ftcorg

November 20, 2020

Scott Harris

Clerk of the Court

U.S. Supreme Court

1 First Street, NE
Washington, DC 20543

Re: — No. 20-347, Spivey v. United States
Request for Distribution on November 24, 2020 for the December 11, 2020 Conference

Dear Mr. Harris:

Petitioner respectfully requests that Spivey v. United States, No. 20-347, be distributed on
November 24, 2020 for the December 11, 2020 Conference. Petitioner is filing his response brief today,
November 20, 2020. Under Rule 15.5, Petitioner expressly waives the 14-day period before distribution
for Conference, and requests that the petition be distributed on November 24, 2020.

Sincerely,

G. ALAN DUBOIS
Federal Public Defender

 

Chief Appellate Attorne
Counsel of Record

Office of the Federal Public Defender for the
Eastern District of North Carolina

150 Fayetteville St., Suite 450

Raleigh, N.C. 27601

DEDICATED TO PROVIDING EFFECTIVE, QUALITY LEGAL REPRESENTATION
